IN THE SUPREME COURT OF THE UNITED STATES.
YANG MEI
VS.
MAYOR AND
CITY COUNCIL
OF BALTIMORE

--PETITIONER

--RESPONDENT

2

PETITION FOR REHEARING

We respectfully request that The Supreme Court Of The United States
Rehear our case.
The contractor Adam Barclay owes us unfinished work for our building
rehab, got paid of $42375.00, causing our home building 600 E.
Patapsco Ave, a commercial building, to be seized for auction by a
vacant building receiver.
The vacant building receiver did the auction sale on October 6, 2020,
during this case still in proceedings, showing contempt of court, and in
a gross inadequate low selling price of $25000.00, to buy a commercial
building with an apartment upstairs in moving-in condition, downstairs
For business ,used to be a restaurant, having two car garage of standing
alone building. That is in violation of 5th Amendment Of The
Constitution, without just compensation and fair pric

IV ED
DEL 3 1 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

not fair and not proper, and also in violation of The Housing Act. It
Seems that the laws do not apply to them.
This sends an unhealthy message to the public.

Now , our family with four kids have been living upstairs in this
building apartment since March ,2020. That is a substantial proof that
this building is not a vacant building.
This building is not subjected to vacant building auction .
We request that The Supreme Court vacates this case.
We pray that The Supreme Court stop this auction and save homeowner
from homeless.
Respectfully Submitted

LraD-N2,0
/ Yuhuan Luo
Yang Mei
405 E. Patapsco Ave.
Baltimore, MD 21225
410-355-1299

D to

No. 20-5842
IN THE SUPREME COURT OF THE UNITED STATES
Yang Mei
V.
Mayor and City Council of Baltimore
Certification of Service
I hereby certify that on this 1 -tit date of
2020, a copy of the
foregoing PETITION FOR REHEARING was served via First Class Mail,
postage prepaid to
Solicitor General of The United States
Room 5616 Department of Justice
950 Pennsylvania Ave. N.W.
Washington, DC. 20530-0001

Yang Mei (Signature)

No. 20-5842
IN THE SUPREME COURT OF THE UNITED STATES
Yang Mei
V.
Mayor and City Council of Baltimore
Certification of Service
I hereby certify that on this
date o
2020, a copy of the
foregoing PETITION FOR REHEARING was served via First Class Mail,
postage prepaid to
Micheal P. Redmond
Baltimore City Law Department
100 N. Holiday Street, Suite 101
Baltimore, MD 21202

Yang Mei (Signature)

No. 20-5842
IN THE SUPREME COURT OF THE UNITED STATES
Yang Mei
V.
Mayor and City Council of Baltimore
Certification of Service
2020, a copy of the
date of
I hereby certify that on this ) t
foregoing PETITION FOR REHEARING was served via First Class Mail,
postage prepaid to
Shea Beitler-Akman, ESQ.
417 E. Fayette Street
Room 355
Baltimore, MD 21202

Yang Mei (Signature)

No. 20-5842
IN THE SUPREME COURT OF THE UNITED STATES
Yang Mei
V.
MAYOR AND CITY COUNCIL OF BALTIMORE
CERTIFICATION
To Whom It May Concern:
This is to certify that this petition for rehearing is presented in
Good faith and not for delay ,and to substantial grounds not previously
Presented that our family with four kids living in second floor is
substantial ground not subject to vacant building auction .

Under penalties of perjury, we declare that all the statements in this
Petition for the rehearing are true, correct and accurate to the best of
Our knowledge and belief.

Signature of Yang Mei

D to

/2-iS , s7
Signature of Yuhuan Luo

Date

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
December 1, 2020
Yang Mei
405 E. Patapsco Ave.
Baltimore, MD 21225
RE: Mei v. Mayor and City Counsel of Baltimore
No: 20-5842
Dear Ms. Mei:
The petition for rehearing in the above-entitled case was postmarked
November 25, 2020 and received December 1, 2020 and is herewith
returned for failure to comply with Rule 44 of the Rules of this Court. The
petition must briefly and distinctly state its grounds and must be
accompanied by a certificate stating that the grounds are limited to
intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously presented.
Please correct and resubmit as soon as possible. Unless the petition is
submitted to this Office in corrected form within 15 days of the date of this
letter, the petition will not be filed. Rule 44.6.

Sincerely,
Scott S. Harris, Clerk
By:
Redmond K. Barnes
(202) 479-3022

Enclosures

